U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States Fish and Wildlife Service, et al. v. Sierra Club, Inc.,
No. 19-547
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was granted on March 2,
2020. On behalf of both parties, we respectfully request that petitioner's time to file its opening
brief and the joint appendix be extended to and including Monday, May 18, 2020. We further
request that respondent's time to file its brief be extended to and including Monday, July 20, 2020.
Under this Court's rules, petitioner's reply brief would be due 30 days later (or at the time specified
in Rule 25.3).
Counsel for both parties consents to these extensions of time.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0547
UNITED STATES FISH AND WILDLIFE SERVICE,
ET AL.
SIERRA CLUB, iNC.

SANJAY NARAYAN
SIERRA CLUB ENWRONMENTAL LAW
PROGRAM
2101 WEBSTER STREET
SUITE 1300
OAKLAND, CA 94612
415-977-5769
SANJAY.NARAYAN@SIERRACLUB.ORG

